           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


         ADMINISTRATIVE
     COSTS CLAIMED BY THE
      WYOMING DISABILITY
    DETERMINATION SERVICES

    July 2004   A-07-04-14051




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY

MEMORANDUM

Date:   July 16, 2004                                                                         Refer To:

To:     James C. Everett
        Regional Commissioner
         Denver

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the Wyoming Disability Determination Services
        (A-07-04-14051)


        OBJECTIVE
        The objectives of our audit were to evaluate the Wyoming Disability Determination
        Services’ (WY-DDS) internal controls over the accounting and reporting of
        administrative costs, determine whether costs claimed were allowable and funds were
        properly drawn, and assess limited areas of the general security controls environment.
        Our audit included the administrative costs claimed by the WY-DDS during Fiscal Years
        (FY) 2000 through 2002.

        BACKGROUND
        Disability determinations under the Social Security Administration (SSA) Disability
        Insurance and Supplemental Security Income programs are performed by Disability
        Determination Services (DDS) in each State or other responsible jurisdictions. Such
        determinations are required to be performed in accordance with Federal law and
        underlying regulations.1 In carrying out its obligation, each DDS is responsible for
        determining claimants’ disabilities and ensuring that adequate evidence is available to
        support its determinations. To assist in making proper disability determinations, the
        DDS is authorized by SSA to purchase consultative examinations to supplement
        evidence obtained from the claimants’ physicians or other treating sources. SSA



        1
         42 United States Code (U.S.C.) § 421; 20 Code of Federal Regulations (C.F.R.) §§ 404.1601 et seq.
        and 416.1001 et seq. (2004).
Page 2 – James C. Everett

authorizes an annual budget to reimburse the DDS for 100 percent of allowable
expenditures.2

The DDS withdraws Federal funds through the Department of the Treasury’s (Treasury)
Automated Standard Application for Payments (ASAP) system to pay for program
expenditures. Funds drawn down must comply with Federal regulations3 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990.4 At the end of each quarter of the FY, the DDS
submits a State Agency Report of Obligations for SSA Disability Programs (SSA-4513)
to account for program disbursements and unliquidated obligations.

The Wyoming Division of Vocational Rehabilitation (WY-DVR) is the WY-DDS’ parent
agency. The WY-DDS is located in Cheyenne, Wyoming. See Appendix B for the
scope and methodology of our review.

RESULTS OF REVIEW
The WY-DDS had effective internal controls over the accounting and reporting of
administrative costs and the costs it claimed during our audit period were allowable.
However, improvements are needed in the WY-DDS’ inventory procedures. In addition,
SSA should rescind the WY-DDS’ FY 2000 funding authority in the ASAP system since
it is no longer needed to make disability determinations.

INVENTORY PROCEDURES

The WY-DDS’ inventory list was not complete because it did not include information on
27 computers and 7 printers. According to the WY-DDS, the lack of appropriate
inventory procedures occurred because there was uncertainty between the WY-DDS
and SSA on who was responsible for the inventory of this equipment. According to SSA
instructions, “the State is responsible for maintenance and inventory of all equipment
acquired whether purchased through SSA or the State.”5 Maintaining complete
inventory records will help prevent and/or detect stolen or misplaced equipment.




2
    20 C.F.R. §§ 404.1626 and 416.1026 (2004).
3
    31 C.F.R. § 205.1 (2004).
4
    Public Law No. 101-453.
5
    Program Operations Manual System DI 39530.020.
Page 3 – James C. Everett

ASAP SYSTEM ACCOUNT BALANCE

Each DDS withdraws Federal funds through the ASAP system to pay for program
expenditures. Funds withdrawn through the ASAP system are restricted solely for
program use, and any unused money is to be returned to Treasury.6 For each FY,
State DDSs are assigned an Account Identification number in the ASAP system. SSA
is responsible for establishing, maintaining and funding DDS accounts in the ASAP
system to control the flow of funds to the State. Cash draws made from the Account
Identification number are to reimburse the DDS for expenditures incurred during the
same period as the Account Identification number's FY reporting period.7 The ASAP
system controls the amount of funds a DDS can draw from Treasury based on the
funding amount authorized by SSA in each account.

On October 26, 2001, the WY-DDS submitted its final SSA-4513 for FY 2000, which
reported to SSA that it had expended all funds necessary to make FY 2000 disability
determinations. However, as of April 23, 2004, the WY-DDS’ FY 2000 ASAP account
had an available balance of $20,453. SSA should rescind the remaining ASAP funding
authority to eliminate the risk that the State could inadvertently obtain the funds.8

CONCLUSION AND RECOMMENDATIONS
The WY-DDS generally had effective internal controls over the accounting and reporting
of administrative costs and the costs it claimed during our audit period were allowable.

We recommend that SSA:

1. Instruct the WY-DDS to maintain a comprehensive inventory list that includes all
   computer equipment.

2. Reduce the WY-DDS’ FY 2000 ASAP funding authority by $20,453.

AGENCY COMMENTS
In response to our draft report, the Denver Regional Office agreed with our first
recommendation. With regards to the second recommendation, the Regional Office
stated that in March 2002 it requested the Office of Disability Determinations to reduce
the WY-DDS’ excess funding authority by $20,453. Accordingly, the Regional Office
stated that no further action was required on its part and requested that we delete our
recommendation. The WY-DDS agreed with our recommendations. The full text of
SSA and WY-DDS comments are included in Appendix C and D, respectively.

6
    42 U.S.C. § 421 (f) (2004).
7
    31 U.S.C. § 1502 (a) (2004).
8
  Office of Disability Determinations informed us that the WY-DDS’ FY 2000 funding authority was
reduced by $20,453 on July 12, 2004.
Page 4 – James C. Everett

OIG RESPONSE
Although the Denver Regional Office requested that the WY-DDS’ FY 2000 ASAP
funding authority be reduced, the action had not been processed at the time of our draft
audit report. In fact, over two years had elapsed since the Regional Office’s request.
Accordingly, our recommendation was appropriate. Following receipt of the Denver
Regional Office’s comments to our draft report, Office of Disability Determinations
informed us that the WY-DDS’ FY 2000 ASAP funding authority was rescinded on
July 12, 2004.




                                               S
                                               Steven L. Schaeffer
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – DDS Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
ASAP       Automated Standard Application for Payments

C.F.R.     Code of Federal Regulations

DDS        Disability Determination Service

FY         Fiscal Year

SSA        Social Security Administration

SSA-4513   State Agency Report of Obligations for SSA Disability Programs

Treasury   Department of the Treasury

U.S.C.     United States Code

WY-DDS     Wyoming Disability Determination Services

WY-DVR     Wyoming Division Vocational Rehabilitation
                                                                       Appendix B

Scope and Methodology
SCOPE
To achieve our objective, we:

•   Reviewed applicable Federal regulations, pertinent parts of Program Operations
    Manual System DI 39500 DDS Fiscal and Administrative Management, and other
    instructions pertaining to administrative costs incurred by Wyoming Disability
    Determination Services (WY-DDS) and the draw down of Social Security
    Administration (SSA) funds.

•   Reviewed the Wyoming single audit report by McGee, Hearne & Piaz, Certified
    Public Accountants. The single audit report did not identify any findings related to
    the WY-DDS.

•   Interviewed staff at WY-DDS, Wyoming Division of Vocational Rehabilitation
    (WY-DVR) and SSA Denver Regional Office.

•   Reviewed State policies and procedures related to personnel, medical services, and
    all other nonpersonnel costs.

•   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.

•   Reviewed the reconciliation of official State accounting records to the administrative
    costs reported by WY-DDS on the State Agency Report of Obligations for SSA
    Disability Programs (SSA-4513) for Fiscal Years (FY) 2000 through 2002.

•   Reviewed and examined the administrative expenditures (personnel, medical
    service, and all other nonpersonnel costs) incurred and claimed by WY-DDS for
    FYs 2000 through 2002 on the SSA-4513. We used statistical sampling to select
    documents to test for support of the medical service and all other nonpersonnel
    costs.

•   Examined the indirect costs claimed by WY-DDS for FYs 2000 through 2002.

•   Compared the amount of SSA funds drawn for support of program operations to the
    expenditures reported on the SSA-4513.

•   Reviewed WY-DDS general controls related to physical security and continuity of
    operations.


                                            B-1
We determined that the data provided by WY-DVR and used in our audit was
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling it with the costs claimed on the SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.

We performed audit work in Cheyenne, Wyoming at the WY-DDS and WY-DVR. We
conducted field work from September 2003 through March 2004. The audit was
conducted in accordance with generally accepted government auditing standards.

METHODOLOGY
We reviewed the $5,946,332 administrative costs WY-DDS reported on its SSA-4513
for FYs 2000 through 2002. The sampling methodology encompassed the four general
areas of costs reported on the SSA-4513 (1) personnel, (2) medical, (3) indirect, and
(4) all other nonpersonnel costs. We obtained a data extract of all costs and the
associated invoices for FYs 2000 through and 2002 for use in statistical sampling. This
was obtained from the accounting systems used in the preparation of the SSA-4513.

Personnel Costs

We reviewed 19 employees from one judgmentally selected pay period in FY 2002 and
17 medical consultants from a different pay period in FY 2002. We tested the payroll
records to ensure individuals were paid correctly and payroll was adequately
documented.

Medical Costs

We sampled 150 items (50 items from each FY) using a stratified random sample of
medical costs based on the proportion of Medical Evidence of Record and Consultative
Examination costs to the total medical costs claimed.

Indirect Costs

WY-DDS indirect costs are computed by applying a Federally approved rate to a cost
base.1 This methodology was approved by the Department of Labor, which is the
Federal agency designated the responsibility of approving indirect costs for the
WY-DVR. During FYs 2000 through 2002, WY-DDS claimed $324,607 for indirect
costs. We reviewed the FY 2000, 2001, and 2002 indirect cost calculations to ensure
the correct rate was applied.




1
 The cost base represents the total of personnel costs less early retirement payouts less medical
consultants plus supportive services less equipment less direct charges from other State agencies plus
other electronic data processing costs plus rent.


                                                  B-2
All Other Nonpersonnel Costs

We sampled 150 items (50 expenditures from each FY) using a stratified random
sample based on the proportion of costs in each of the 10 SSA-4513 all other
nonpersonnel cost categories to the total all other nonpersonnel cost. In addition, we
reviewed all occupancy costs for each FY.




                                           B-3
                                Appendix C

Social Security Administration Comments
C-1
C-2
C-3
C-4
                                 Appendix D

Wyoming Disability Determination Services
Comments
Date: July 12, 2004

To:    Steven L. Schaeffer, Assistant Inspector General for Audit
       Social Security Administration

From: Vicki L. Johnson, Program Manager

Re:    Response to Office of the Inspector General Audit Draft

Subj: Administrative Cost Claimed by the Wyoming Disability Determination Services
       (A-07-04-14051)

                                MEMORANDUM
I am responding to the draft report Administrative Costs Claimed by the Wyoming
Disability Determination Services on behalf of Kathy Emmons, Director of the
Department of Workforce Services.

The only audit consideration for the DDS was the lack of a comprehensive inventory list
of SSA-purchased computer equipment. While the DDS has a very extensive listing of
state owned equipment, there was confusion as to the responsibility for the list keeping
on the equipment that SSA sent to the DDS. Once informed that it was the DDSs’
responsibility, we took immediate action to create a spreadsheet for such an inventory
list. That list was completed the day of notification (mid-audit) and continues to be
maintained.

The other consideration on the audit was SSA’s responsibility and has also been
resolved.

Finally, I would be remiss if I did not acknowledge the efforts of the OIG audit team of
Ron Bussell, Tonya Coffelt and Khristan Kaufman. They were most thorough,
professional and pleasant with which to work. We certainly appreciate all of their efforts
to oversee the integrity of the program. Thank you for your attention to this matter.


Sincerely,



Vicki L. Johnson
Program Manager


CC: Kathy Emmons, Director DWS
  Jim McIntosh, Administrator DVR
  James Everett, Social Security Administration Regional Commissioner


                                            D-1
Sandy Williams, SSA Director Center for Disability
Joe Marci, SSA Disability Program Administrator
Bob Carmichael, SSA Budget Officer




                                       D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Central Audit Division (816) 936-5591

   Ron Bussell, Audit Manager, (816) 936-5577

Acknowledgments

In addition to those named above:

   Kenneth Bennett, Information Technology Specialist

   Tonya Coffelt, Auditor

   Khristan Kaufman, Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-04-14051.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
             Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations
(OI), Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG),
and Office of Executive Operations (OEO). To ensure compliance with policies and
procedures, internal controls, and professional standards, we also have a
comprehensive Professional Responsibility and Quality Assurance program.

                                     Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to
ensure program objectives are achieved effectively and efficiently. Financial audits
assess whether SSA’s financial statements fairly present SSA’s financial position,
results of operations, and cash flow. Performance audits review the economy,
efficiency, and effectiveness of SSA’s programs and operations. OA also conducts
short-term management and program evaluations and projects on issues of concern to
SSA, Congress, and the general public.

                                Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by
applicants, beneficiaries, contractors, third parties, or SSA employees performing their
official duties. This office serves as OIG liaison to the Department of Justice on all
matters relating to the investigations of SSA programs and personnel. OI also conducts
joint investigations with other Federal, State, and local law enforcement agencies.

                 Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters,
including statutes, regulations, legislation, and policy directives. OCCIG also advises
the IG on investigative procedures and techniques, as well as on legal implications and
conclusions to be drawn from audit and investigative material. Finally, OCCIG
administers the Civil Monetary Penalty program.

                            Office of Executive Operations
OEO supports OIG by providing information resource management and systems
security. OEO also coordinates OIG’s budget, procurement, telecommunications,
facilities, and human resources. In addition, OEO is the focal point for OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act of 1993.
